                                                        N&llIONAL SCIENCE FOUNDATION
                                                           WASHINGTON, D.C. 2 0 5 5 0




                          O f f i c e of
                      Inspector General



                      MEMORANDUM
                                     DATE : April.,
                                                  22

--..
.      - .-.-- ..- - .... . -. ..-
                                     FROM :.--
                                          -.                                     -Charge,
                                                                                  - .. ....
                                                                                   -.. ..   Investigations
                                                                                            -   .-    .
                                                                                                     .~. . - . ... .....   ~,   ..   .   . .




                          SUBJECT:               Allegation of Misuse of Funds
                                       TO:       Case No. I93030013

                      On March 22, 1993, we were contacted by
                      terminated              the University


                       commi

                      actual expenditures while providing incorrect records to the
                      University.          stated that she had retained counsel in an
                      effort to win bac     job.
                      We compared the budgeted, first-year expenditures of Dr.
                      NSF grant with the month-by-monthAccount Summary provided
                              and found no evidence of improper expenditures. On April
                    -3,          we contacted Ms. -or      additional information. Ms.




                      was any criminal-intent oi Dr.                             part, just arrogance and
                      inexperience with grant managemen
                      We contacted the former Administrative Assistant,
                      Ms. w e l i e v e d might be aware of wrongdoing.
                      that s e had worked in that position for two a
                      and was unaware of any possible wrongdoing or mismanagement of
                      funds. She also stated that she                   unlikely that
                      grants funds were misused, given Ms.              character and
                      background.
Based on our review of the case, and the lack of facts
substantiating the allegation, I do not feel that further
investigative resources should be expended at this time.
This case is closed.
